National Museum of
African American
History and Culture
Building Project




Smithsonian Needs
Better Fundraising
Reporting to Make
Informed Project
Management Decisions




Office of the Inspector General
Report Number A-13-02
August 23, 2013
         Smithsonian Institution
         Office of the Inspector General
                               Smithsonian Needs Better Fundraising

In Brief                       Reporting to Make Informed Project
                               Management Decisions
                               Report Number A-13-02, August 23, 2013


Why We Did This Audit           What We Found

We have conducted a             We found that management’s funding plans for the NMAAHC
series of audits of the         building project did not align with the timing of the project’s
Smithsonian’s                   funding requirements. However, due to the difficulty in
management of the               predicting the timing and amounts of both federal appropriations
National Museum of              and private donations, management did not expect available
African American History        funds to align with funding requirements. Therefore,
and Culture (NMAAHC)            management has planned to borrow funds to meet these
building project.               requirements until fundraising for this project is completed. As
                                of June 2013, the Smithsonian has received approximately $113
Our audit objectives were       million in private donations and $191 million in federal
to determine whether (1)        appropriations for the building project.
management’s funding
plans align with the timing     We also found that NMAAHC did not use the Smithsonian’s
of projected expenses, and      central donor database system for reporting private donations.
(2) management has a            This resulted in the museum providing Smithsonian
contingency plan should         management with overstated fundraising amounts that were
the Smithsonian not             used to make future funding decisions.
receive expected federal
appropriations or private       The museum did not use the central system when producing
donations.                      fundraising reports because they found the system to be difficult
                                to use and not robust enough for their needs. Instead, the
Background                      museum used its own secondary system to manually produce
                                fundraising reports for management. As a result of this process,
In 2003, Congress               the Smithsonian was relying on fundraising amounts that were
established NMAAHC,             overstated by $922,000 when making management decisions.
dedicated to the collection,
preservation, research,         What We Recommended
and exhibition of African
American historical and         To ensure that the NMAAHC project team has accurate
cultural material. The $500     information to manage the project’s funding plans and
million funding for this        requirements, we made recommendations for NMAAHC
construction project will be    management to use fundraising data from the central donor
split evenly between            database system when reporting on the status of the NMAAHC
federal appropriations and      building project.
private donations. The
Smithsonian announced           Management concurred with our findings and recommendations
that the museum will open       and has planned corrective actions to address the
to the public in November       recommendations. We will continue to monitor management’s
2015.                           progress towards completion of these recommendations.

                                For additional information or a copy of the full report, contact the 

                                Office of the Inspector General at (202) 633-7050 or visit 

                                http://www.si.edu/oig. 

             Smithsonian Institution 	                                                 Memo

            Office of the Inspector General


   Date     August 23, 2013

     To 	   Albert Horvath, Under Secretary for Finance and Administration/
              Chief Financial Officer
            Richard Kurin, Under Secretary for History, Art, and Culture
            Lonnie Bunch, Director, National Museum of African American History
              and Culture 

            Virginia Clark, Director, Office of Advancement 


     cc 	 Patricia Bartlett, Chief of Staff, Office of the Secretary
            Nancy Bechtol, Director, Office of Facilities Engineering and Operations
            Zully Dorr, Deputy Director, Office of Advancement
            Judith Leonard, General Counsel
            Stone Kelly, Program and Budget Analyst, Office of Planning,
              Management and Budget

  From      Scott S. Dahl, Inspector General   ~
Subject     Audit Report on NMAAHC Building Project-Budget and Funding, A-13-02

            Attached please find a copy of our final report titled Smithsonian Needs
            Better Fundraising Reporting to Make Informed Project Management
            Decisions.

            We made two recommendations to ensure that Smithsonian management
            used the central donor database system to report fundraising amounts to
            better manage the project's funding plans and requirements. Management
            concurred with our findings and recommendations and has planned corrective
            actions to address the recommendations. We will continue to monitor
            management's progress towards completion of these recommendations.

            We appreciate the courtesy and cooperation of all Smithsonian staff during
            this review.

            Please call me or Michael Sinko, Assistant Inspector General for Audits, on
            202.633. 7050 if you have any questions.




            MRC 524
            POBox37012
            Washington DC 20013-0712
            202.633.7050 Telephone
            202.633-7079 Fax
SMIT
  ITH
    HSONIA
        IAN
          N IN
            INSSTIT
                 ITU
                   UTIO
                     IONN                         OFFI
                                                   FFICCE OF THE
                                                             THE INSPECTOR GENERAL



                                INTRODUCTION



In 2003, Congress established the National Museum of African American History
and Culture (NMAAHC), dedicated to the collection, preservation, research, and
exhibition of African American historical and cultural material. The $500 million
funding for the NMAAHC building project will be split evenly between federal
appropriations and private donations. In 2012, the Smithsonian announced that it
will open the museum to the public in November 2015.

The Office of the Inspector General (OIG) has conducted a series of audits of the
Smithsonian’s management of the NMAAHC building project. Through these audits,
our objective has been to determine whether the Smithsonian has adequate
processes in place to keep this project on schedule and within budget.

For this audit report, we focused on the project’s funding because the construction
project delivery method selected necessitates an accelerated funding schedule. In
addition, Smithsonian management expressed concerns about the funding schedule
during our earlier audit. Without sufficient funds on hand, the Smithsonian would
not be able to continue to award construction work, which may potentially delay the
project schedule. Our objectives were to determine whether (1) management's
funding plans align with the timing of projected expenses, and (2) management has
a plan should the Smithsonian not receive expected federal appropriations or
private donations.

The Smithsonian’s funding plans for the NMAAHC building project consist of annual
federal budget requests and private fundraising goals. The projected expenses, also
referred to as funding requirements, represent the schedule of when management
anticipates needing funds for construction-related expenditures.

Because the NMAAHC project is ongoing, we evaluated management’s funding plans
and requirements as of February 2013. A detailed description of our objectives,
scope, and methodology is included in Appendix A.


                               RESULTS OF AUDIT

We found that management’s funding plans for the NMAAHC building project did not
align with the timing of the project’s funding requirements. However, due to the
difficulty in predicting the timing and amounts of both federal appropriations and
private donations, management did not expect available funds to align with funding
requirements. Therefore, management has planned to borrow funds to meet these
requirements until fundraising for this project is completed. We also found that
NMAAHC did not use the Smithsonian’s central donor database system for reporting
private donations. This resulted in the museum providing Smithsonian management
with overstated fundraising amounts that were used to make future funding
decisions.




                                         1


SMIT
  ITH
    HSONIA
        IAN
          N IN
            INSSTIT
                 ITU
                   UTIO
                     IONN                          OFFI
                                                    FFICCE OF THE
                                                              THE INSPECTOR GENERAL



To ensure that the NMAAHC project team has accurate information to manage the
project’s funding plans and requirements, we made recommendations for NMAAHC
management to use fundraising data from the central donor database system when
reporting on the status of the NMAAHC building project.

Management concurred with our findings and recommendations and has planned
corrective actions to address the recommendations. Please refer to Appendix B for
management’s complete response.

Smithsonian Plans to Borrow Funds to Keep the NMAAHC Building Project
on Schedule

The Federal Acquisition Regulations (FAR), Subpart 32.7, require that funds be
available before the government may create an obligation. The Smithsonian has
incorporated this practice for both its federal and trust funds into Part 3 of the
Procurement and Contracting Procedures Manual in Smithsonian Directive (SD)
314, Contracting. Accordingly, the Smithsonian may not obligate funds, and
therefore may not award work, until the funds are available.

We found that the Smithsonian’s funding plans, as of February 2013, did not align
with the timing of the project’s funding requirements. However, Smithsonian
management explained that due to the difficulty in predicting the timing of federal
appropriations and private donations, management did not expect available funds
to align with funding requirements. Therefore, to maintain compliance with the FAR
and SD 314, Smithsonian management plans to borrow additional funds to continue
to award work.

The funding plans for the $500 million project consist of annual federal budget
requests and private fundraising goals. Through fiscal year 2013, the Smithsonian
has received approximately $191 million through appropriations of the $250 million
federal share of the project budget. Since 2008, the Smithsonian has received
annual installments of between $2 million and $75 million in federal appropriations.

This incremental federal funding is one of the factors that contributed to the
funding plans not aligning with the project’s funding requirements. Such
incremental funding for a federal building project contrasts with the common
practice of the General Services Administration, responsible for most building
projects within the federal government, to receive all funds before the project
commences. In addition, the recent federal budget environment has resulted in a
slower pace of appropriations than the Smithsonian requested. In fiscal years 2012
and 2013, the Smithsonian received approximately $64 million less than the $210
million it requested.

Likewise with the private fundraising portion of the project, the amount of funds
raised from private donations has not aligned with the project requirements.
NMAAHC management explained that the overall goal of $250 million was
apportioned by year, beginning with fiscal year 2006, with higher goals established



                                          2


SMITHSONI
SMITHSONIAN INSTITUTION                             OFFICE
                                                    OFFICE OF TH
                                                              THEE INS
                                                                   INSPPEC
                                                                        ECTO
                                                                           TOR
                                                                             R GE
                                                                               GENER
                                                                                 NERAAL



for the later years. We note that NMAAHC has made progress towards raising the
requisite $250 million, but it has not consistently met its annual fundraising goals.
In fact, over the past 7 years (2006-2012), the museum did not meet their annual
goal four times. While they exceeded their goals for the other 3 years, it was not
enough to fully offset the shortfall. As of June 2013, the Smithsonian has recorded
approximately $113 million in private donations for the project. According to
NMAAHC management, the museum is on track to meet its fiscal year 2013 goal.

Smithsonian management explained that setting fundraising goals is difficult
because the Smithsonian cannot accurately predict when, and how much, potential
donors may give. In addition, according to Office of Advancement (OA), the
museum’s annual fundraising goals were set based on what the museum believed it
could raise, not the funding needs of the project.

During our review, we determined that the project is expected to have annual
deficits starting in the 3rd quarter of fiscal year 2013 through the remaining years of
the building project. Deficits occur when funding requirements out-pace available
federal and private funds. Therefore, Smithsonian management explained that,
following common industry practice, the Smithsonian plans to borrow funds to keep
construction on schedule until fundraising for this project is completed. The
borrowing of funds will allow the Smithsonian to continue awarding work while
remaining in compliance with FAR requirements.

NMAAHC did not use the Smithsonian’s Central Fundraising System for
Reporting

We examined the data supporting the funding plans to determine whether these
plans aligned with funding requirements. We also assessed the accuracy of the
financial data in the funding plans for this project, as well as the many reports
documenting both funds raised and funding requirements.

During this review, we found that the museum did not use data from the
Development and Membership Information System (DMIS), the Smithsonian’s
central donor database system, to report its fundraising progress for the project.
Instead, the museum used its own donor database system, Raiser’s Edge, to
manually update the monthly Trust Fundraising report. In addition, the museum
updated the Trust Fundraising report with only new activity since the last report,
rather than with all activity as of the current report date. By updating the report in
this manner, the report may not include adjustments the museum made to
transactions, nor identify errors, from earlier periods. Producing the Trust
Fundraising report from this database source resulted in the Smithsonian relying on
overstated fundraising amounts to manage the NMAAHC project.




                                          3

SMITHSONI
SMITHSONIAN INSTITUTION 	                          OFFICE
                                                   OFFICE OF TH
                                                             THEE INS
                                                                  INSPPEC
                                                                       ECTO
                                                                          TOR
                                                                            R GE
                                                                              GENER
                                                                                NERAAL



The museum is required to produce this report and submit it to the Office of the
Treasurer for incorporation into the building projects Sources and Uses report. The
Sources and Uses report is then presented at the monthly Project Executive
meetings and used to make informed business decisions concerning the NMAAHC
building project.

The Smithsonian’s Gift Recording Principles and Standards, a guide published by
OA, states that units may only use data from the central system when reporting
fundraising figures. This requirement, however, is not included in the Smithsonian
Directive (SD) on fundraising—SD 809, Philanthropic Financial Support.

In addition, SD 809 identifies fundraising responsibilities for the museum and the
central OA. NMAAHC is responsible for its fundraising programs and efforts,
including setting annual goals, identifying and cultivating relationships with
potential donors, and soliciting donations. OA is principally responsible for
Smithsonian-wide private fundraising policies and efforts. OA enters all gifts into
DMIS. Through DMIS, OA tracks each museum’s progress towards meeting their
annual fundraising goals.

However, the museum did not use DMIS to report on fundraising progress for the
NMAAHC project because the museum said it found producing reports from the
system difficult. In addition, NMAAHC staff believed that this system was not robust
enough to meet their needs and was not user friendly. According to OA, other
museums have expressed similar concerns about DMIS.

In response, in early fiscal year 2014, OA plans to implement a new central donor
database system, Pan-Institutional Database for Advancement (PANDA). According
to OA, PANDA will improve reporting capabilities and include features such as the
ability to mark conditional pledges. Once OA implements PANDA, all new data for
fiscal year 2014 must be entered into the system. However, according to OA staff,
while all financial information will be converted from DMIS immediately, the
conversion of non-financial information (including donor prospect data) from the
museums’ secondary systems may take up to 2 years.

Producing the Trust Fundraising report from the museum’s secondary system rather
than the central OA system resulted in the Smithsonian relying on $922,000 in cash
and pledges it did not have to manage the NMAAHC project. This difference
consisted of the following:


   •	 $222,000 that had no supporting documentation and was not in either DMIS
      or Raiser’s Edge. NMAAHC staff were unable to determine whether the
      $222,000 overstatement was in cash or pledges because this amount was in
      a summary line item for small gifts.

      According to NMAAHC staff, part of the discrepancy is based on the museum
      reporting only new activity and thereby excluding any prior adjustments.



                                          4

SMITHSONI
SMITHSONIAN INSTITUTION 	                           OFFICE
                                                    OFFICE OF TH
                                                              THEE INS
                                                                   INSPPEC
                                                                        ECTO
                                                                           TOR
                                                                             R GE
                                                                               GENER
                                                                                 NERAAL




   •	 $700,000 that was a conditional pledge where the museum had no
      supporting documentation that the museum had met the condition. This
      amount was included in Raiser’s Edge and the Trust Fundraising report, but
      not in DMIS.

      The Smithsonian included the $700,000 conditional pledge as collateral for
      an internal loan without meeting the requirements of the pledge. If the
      museum does not meet the donor’s requirements, it would not be entitled to
      the $700,000. Nevertheless, the Smithsonian was confident the conditions
      would be met, that it agreed to include the pledge dollars as collateral.

The Office of the Treasurer (OT) used information from the Trust Fundraising report
to monitor the funds available against funding requirements. OT and the Project
Executive, who is responsible for managing the project’s budget and schedule, then
presented this information at the monthly project meetings.

While the $922,000 discrepancy was small compared to the $250 million that the
museum must raise for the project, the Smithsonian could have more significant
inaccuracies in the future if it continues to monitor and report on fundraising in this
manner. Moreover, funding decisions would not be based on the most reliable
financial data.

Recommendations

To ensure that the NMAAHC project team has accurate information to manage the
project’s funding plans and requirements, we recommend that the:

   1. Director of OA: Revise SD 809 to require the use of the central donor 

      database system to report fundraising. 


   2. Director of OA, in coordination with the Director of the Office of Finance and
      Accounting, and the Director of NMAAHC: Develop and produce an
      automated Trust Fundraising report using the central donor database system.




                                           5

SMIT
  ITH
    HSONIA
        IAN
          N IN
            INSSTIT
                 ITU
                   UTIO
                     IONN                          OFFI
                                                    FFICCE OF THE
                                                              THE INSPECTOR GENERAL



                                                                       APPENDIX A

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine whether (1) management's funding plans align
with the timing of projected expenses, and (2) management has a plan should the
Smithsonian not receive expected federal appropriations or private donations.

We met with personnel from various Smithsonian units to obtain an understanding
of the NMAAHC project. We learned about the Smithsonian’s fundraising process
from personnel within NMAAHC, OA, OT, and the Office of Facilities Engineering and
Operations. Personnel from the Office of Planning, Management and Budget
explained the Federal appropriations process for this project. The Under Secretary
for History, Art, and Culture, and the Under Secretary for Finance and
Administration/Chief Financial Officer updated us on the NMAAHC project’s funding
and financing plans. Finally, we attended the various project meetings to keep
abreast of the project’s developments.

We identified criteria by reviewing relevant Smithsonian policies and prior OIG
audits of building project management. We also reviewed policies from the higher
education sector, to identify best practices in managing funding plans for building
projects.

We looked at multiple reports, prepared for the February 6, 2013 Project Executive
meeting, to evaluate whether management’s funding plans align with the project’s
funding requirements. For these reports, we verified the accuracy of the funds
raised and funding requirements for the construction portion of the project.
Specifically, we reconciled the information to source documents, including the two
donor database systems, construction cost estimates based on 65 percent design
documents, and contract modifications. We also verified that a sample of recorded
cash receipts, grants, and pledges agreed to source documents. We discussed
discrepancies we identified with relevant staff.

We also reviewed fundraising goals for the museum and compared them against
the actual amounts raised each year. We did not review the Smithsonian’s entire
internal control structure for managing the NMAAHC building project. We limited
our review to those internal controls related to the processes for monitoring the
project through funding plans and funding requirements.

We conducted this performance audit in Washington, D.C. and Arlington, VA, from
October 2012 to April 2013, in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence we
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.



                                         A-1


SMIT
  ITH
    HSONIA
        IAN
          N IN
            INSSTIT
                 ITU
                   UTIO
                     IONN           OFFI
                                     FFICCE OF THE
                                               THE INSPECTOR GENERAL



                                                      APPENDIX B



MANAGEMENT’S RESPONSE






                            B-1


SMIT
  ITH
    HSONIA
        IAN
          N IN
            INSSTIT
                 ITU
                   UTIO
                     IONN            OFFI
                                      FFICCE OF THE
                                                THE INSPECTOR GENERAL



                                                       APPENDIX B

MANAGEMENT’S RESPONSE (Continued)




                             B-2


SMIT
  ITH
    HSONIA
        IAN
          N IN
            INSSTIT
                 ITU
                   UTIO
                     IONN            OFFI
                                      FFICCE OF THE
                                                THE INSPECTOR GENERAL



                                                       APPENDIX B

MANAGEMENT’S RESPONSE (Continued)




                             B-3


SMIT
  ITH
    HSONIA
        IAN
          N IN
            INSSTIT
                 ITU
                   UTIO
                     IONN                      OFFI
                                                FFICCE OF THE
                                                          THE INSPECTOR GENERAL



                                                                 APPENDIX C


MAJOR CONTRIBUTORS TO THIS REPORT

Joan Mockeridge, Supervisory Auditor
Michelle Uejio, Auditor-in-Charge
Brendan Phillips, Auditor




                                       C-1


